        ϐ 
    
          ͳͷǡ ʹͲͳ͵
  





       Prepared by the Inspectors General of the:
             
 
             
 

               	 
          	  




             10 APRIL 2014
NOTE: This report is an unclassified summary of a 168-page classified report that was also issued today, 10 April 2014, by the Inspectors General for
the Intelligence Community, Central Intelligence Agency, Department of Justice, and Department of Homeland Security. Redactions in this document
are the result of classification and sensitivity designations we received from agencies and departments that provided information to the OIGs for this
review. As to several of these classification and sensitivity designations, the OIGs disagreed with the bases asserted. We are requesting that the
relevant entities reconsider those designations so that we can unredact those portions and make this information available to the public.

              I.        INTRODUCTION

                     On April 15, 2013, two pressure cooker bombs placed near the finish
              line of the Boston Marathon detonated within seconds of each other, killing
              three and injuring more than two hundred people. Law enforcement
              officials identified brothers Tamerlan and Dzhokhar Tsarnaev as primary
              suspects in the bombings. After an extensive search for the then-
              unidentified suspects, law enforcement officials encountered Tamerlan and
              Dzhokhar Tsarnaev in Watertown, Massachusetts. Tamerlan Tsarnaev was
              shot during the encounter and was pronounced dead shortly thereafter.
              Dzhokhar Tsarnaev, who fled the scene, was apprehended the following day
              and remains in federal custody.

                    A decade earlier, Tamerlan and Dzhokhar Tsarnaev immigrated to the
              United States from Kyrgyzstan with their parents Anzor Tsarnaev and
              Zubeidat Tsarnaeva. Anzor Tsarnaev, an ethnic Chechen, his wife Zubeidat
              Tsarnaeva, and their son Dzhokhar Tsarnaev arrived in the United States
              from Kyrgyzstan in 2002. They applied for and received an immigration
              benefit. The elder son, Tamerlan Tsarnaev, and his sisters, Bella and Ailina
              Tsarnaeva, arrived in the United States in 2003 and also received an
              immigration benefit. In the years that followed, all six family members
              became Lawful Permanent Residents of the United States.

                     Two years before the Boston Marathon bombings, Tamerlan Tsarnaev
              and Zubeidat Tsarnaeva came to the attention of the Federal Bureau of
              Investigation (FBI) based on information received from the Russian Federal
              Security Service (FSB). In March 2011, the FBI received information from
              the FSB alleging that Tamerlan Tsarnaev and Zubeidat Tsarnaeva were
              adherents of radical Islam and that Tamerlan Tsarnaev was preparing to
              travel to Russia to join unspecified underground groups in Dagestan and
              Chechnya. The FBI-led Joint Terrorism Task Force in Boston (Boston JTTF)
              conducted an assessment of Tamerlan Tsarnaev to determine whether he
              posed a threat to national security and closed the assessment three months
              later having found no link or “nexus” to terrorism.

                     In September 2011, the FSB provided the Central Intelligence Agency
              (CIA) information on Tamerlan Tsarnaev that was substantively identical to
              the information the FSB had provided to the FBI in March 2011. In October
              2011, the CIA provided information obtained from the FSB to the the
              National Counterterrorism Center (NCTC) for watchlisting purposes, and to
              the FBI, Department of Homeland Security (DHS), and the Department of
              State for their information. Upon NCTC’s receipt of the information,
              Tamerlan Tsarnaev was added to the terrorist watchlist.

                                                                           1
      Three months later, Tamerlan Tsarnaev traveled to Russia, as the lead
information stated he was preparing to do. However, Tsarnaev’s travel to
Russia did not prompt additional investigative steps to determine whether
he posed a threat to national security.

       By April 19, 2013, after the Tsarnaev brothers were identified as
suspects in the bombings, the FBI reviewed its records and determined that
in early 2011 it had received lead information from the FSB about Tamerlan
Tsarnaev, had conducted an assessment of him, and had closed the
assessment after finding no link or “nexus” to terrorism. In the days that
followed, Members of Congress asked questions of the Director of the FBI,
the Director of National Intelligence (DNI), and other government officials
about the handling of information concerning Tamerlan Tsarnaev prior to
the bombings. The Intelligence Community Inspectors General Forum, with
the support of the DNI, determined that the Inspectors General of the
Intelligence Community, the CIA, the Department of Justice (DOJ), and DHS
would conduct a coordinated review of the handling and sharing of
information available to the U.S. government prior to the Boston Marathon
bombings. The Inspectors General issued a public announcement of a
coordinated, independent review on April 30, 2013.


II.   SCOPE AND METHODOLOGY OF THE REVIEW

      As outlined in a May 21, 2013, memorandum from the participating
Inspectors General, the objectives of this review were to determine:

         •   The extent of the information available to the U.S. government
             concerning the relevant individuals and events preceding the
             Boston Marathon bombings;
         •   Whether the sharing of this information was complete, accurate,
             and in compliance with U.S. counterterrorism and information
             sharing, policies, regulations, and U.S. laws; and
         •   Whether there are weaknesses in protocols and procedures that
             impact the ability to detect potential threats to national
             security.

       In furtherance of these objectives, the Offices of Inspector General
(OIGs) sought to develop a chronology of the events leading up to the
bombings based on information that was known to the U.S. government
prior to April 15, 2013. We also sought to identify what additional
information existed and may have been available to the U.S. government
before the bombings. In considering whether information that existed prior
to the bombings was “available” to the U.S. government, the OIGs took into
account the limited facts known to U.S. government agencies prior to the

                                      2
bombings and the extent of the government’s authority under prevailing
legal standards to access that information. As a result, the scope of this
review included not only information that was in the possession of the U.S.
government prior to the bombings, but also information that existed during
that time and that the federal government reasonably could have been
expected to have known before the bombings.

       While some of the information relevant to our review was developed
after the bombings, the OIGs were mindful of the sensitive nature of the
ongoing criminal investigations and prosecutions related to the bombings,
and were careful to ensure that the review would not interfere with these
activities. We carefully tailored our requests for information and interviews
to focus on information available before the bombings and, where
appropriate, coordinated with the U.S. Attorney’s Office conducting the
prosecution of alleged bomber Dzhokhar Tsarnaev. 1

       We focused our review on the entities that were the most likely to
have had information about Tamerlan Tsarnaev prior to the bombings – the
FBI, the CIA, DHS, and NCTC, which maintains the U.S. government’s
database of classified identifying and substantive derogatory information on
known or suspected terrorists. We also requested other federal agencies to
identify relevant information they may have had prior to the bombings.
These agencies included the Department of Defense (including the National
Security Agency (NSA)), Department of State, Department of the Treasury,
Department of Energy, and the Drug Enforcement Administration.

       The review was conducted by four teams from the OIGs of the DOJ,
CIA, DHS, and the Intelligence Community (IC). The OIGs reviewed
thousands of documents and interviewed more than 160 individuals,
including senior CIA, FBI, DHS, and NCTC officials. While the review teams
shared relevant documents, attended briefings, and participated jointly in
interviews of certain officials, each OIG was responsible for evaluating the
actions of, and information available to, its respective agencies.
Additionally, each OIG conducted or directed its component agencies to
conduct database searches to identify relevant pre-bombing information.

      As described in more detail in the classified report, the DOJ OIG’s
access to certain information was significantly delayed at the outset of the
review by disagreements with FBI officials over whether certain requests fell
outside the scope of the review or could cause harm to the criminal

       1 The initial lead information from the FSB in March 2011 focused on Tamerlan
Tsarnaev, and to a lesser extent his mother Zubeidat Tsarnaeva. Accordingly, the FBI and
other agencies did not investigate Dzhokhar Tsarnaev’s possible nexus to terrorism before
the bombings, and the OIGs did not review what if any investigative steps could have been
taken with respect to Dzhokhar Tsarnaev.


                                            3
investigation. Only after many months of discussions were these issues
resolved, and time that otherwise could have been devoted to completing
this review was instead spent on resolving these matters.


III.   ROLES AND AUTHORITIES OF THE AGENCIES INVOLVED
       IN THE REVIEW

       A.   Executive Order 12333

      The roles and responsibilities of the intelligence elements of the FBI,
DHS, CIA, and NCTC are broadly set forth in Executive Order (E.O.) 12333,
as amended. Originally signed in 1981, and amended several times since,
E.O. 12333 placed restrictions on intelligence collection activities engaged in
by Executive Branch agencies, including the FBI, CIA, and NCTC, while also
seeking to foster “full and free exchange of information” among these
agencies. Among other purposes, E.O. 12333, as amended, is intended to
enhance “the acquisition of significant foreign intelligence, as well as the
detection and countering of international terrorist activities.” To further this
purpose, E.O. 12333 provides the basic jurisdictional framework for the
various roles and responsibilities of the Executive Branch agencies and
departments that comprise the Intelligence Community.

       Under E.O. 12333, the FBI has primary responsibility to “coordinate
the clandestine collection of foreign intelligence collected through human
sources or through human-enabled means and counterintelligence activities
inside the United States.” The CIA has primary responsibility to coordinate
intelligence gathering activities outside the United States. In addition, E.O.
12333 authorizes the NSA to “[c]ollect (including through clandestine
means), process, analyze, produce, and disseminate signals intelligence
information and data for foreign intelligence and counterintelligence
purposes to support national and departmental missions[.]”

       B.   FBI

       The FBI’s domestic operations are governed by the Attorney General
Guidelines for Domestic FBI Operations (AG Guidelines) and implemented
through the FBI’s Domestic Investigations and Operations Guide (DIOG).
The AG Guidelines and the DIOG authorize three levels of investigation to
address a potential threat to national security: (1) an assessment, which
requires an authorized purpose but does not require any particular factual
predication; (2) a preliminary investigation, which requires information or
an allegation of a possible threat to national security; and (3) a full
investigation, which requires an articulable factual basis of a possible threat




                                       4
to national security. 2 The AG Guidelines established these different levels of
investigation to provide FBI personnel with flexibility to adapt the
investigative methods used to the nature of both the matter under
investigation and the information supporting the need for investigation.
This flexibility includes the option of choosing a lower level of investigation,
even when the predication for a higher level of investigation is met, if FBI
personnel determine the matter can be resolved through less intrusive
methods.

      Both the AG Guidelines and the DIOG emphasize the core principles
that FBI investigations must be undertaken for an authorized purpose and
should be carried out by the least intrusive method feasible under the
circumstances of the investigation. According to the DIOG, the threshold
requirement that all investigative activities be conducted for an “authorized
purpose” is a safeguard intended to ensure that FBI employees respect the
Constitutional rights of Americans. Thus, both the AG Guidelines and the
DIOG make clear that no investigation may be conducted for the sole
purpose of monitoring activities protected by the First Amendment or the
lawful exercise of other rights secured by the Constitution or laws of the
United States.

       As the federal government’s lead domestic counterterrorism agency,
the FBI played a critical role in investigating the lead information from the
FSB and determining whether Tamerlan Tsarnaev had a nexus to terrorism
or posed a threat to the national security in 2011, two years prior to the
April 15, 2013, Boston Marathon bombings. This lead information was
investigated by the FBI through the Boston JTTF. Representatives from the
DHS, CIA, and other federal, state, and local agencies work directly with
FBI-led JTTFs across the country, including in Boston.

       C.     CIA

       In addition to E.O. 12333, the National Security Act of 1947, as
amended, governs the ability of the CIA to engage in intelligence activities.
The National Security Act provides the basic statutory authority for the
CIA’s intelligence activities, while prohibiting the Agency from exercising
either law enforcement or domestic security functions. Section 104A of the
Act authorizes the Director of the CIA to provide “overall direction for and
coordination of the collection of national intelligence outside the United


       2  Each level of investigation allows the FBI to use increasingly intrusive
investigative methods. For example, the FBI is limited to relatively unintrusive methods
such as consensual interviews and database checks in an assessment, while it may use
more intrusive methods such as obtaining judicial search warrants and FISA orders to
conduct electronic surveillance in a full investigation.


                                             5
States through human sources by elements of the intelligence community
authorized to undertake such collection.”

       D.       DHS

       The Homeland Security Act of 2002, as amended, created the DHS
and established the Department’s primary mission to prevent terrorist
attacks in the United States and to carry out the functions of the entities
transferred to the Department, which included the Immigration and
Naturalization Service (INS) and the Transportation Security Administration
(TSA). 3 Multiple components within the DHS execute its mission. Those
involved in this review include:

            •   U.S. Citizenship and Immigration Services (USCIS), which
                oversees and adjudicates immigration benefits;
            •   U.S. Customs and Border Protection (CBP), which vets people
                and goods entering and exiting the United States; and
            •   TSA, which secures U.S. transportation systems.

       E.       NCTC

       In 2004, the Intelligence Reform and Terrorism Prevention Act (IRTPA)
codified the establishment of the NCTC as part of the Office of the Director
of National Intelligence. 4 The primary missions of the NCTC that pertain to
this review are to:

            •   Serve as the primary organization of the federal government for
                analyzing and integrating all intelligence possessed or acquired
                pertaining to terrorism or counterterrorism (except intelligence
                pertaining exclusively to domestic terrorists and domestic
                counterterrorism);
            •   Ensure that . . . agencies have access to and receive intelligence
                needed to accomplish their assigned activities; and
            •   Serve as the “central and shared knowledge bank on known and
                suspected terrorists and international terror groups, as well as




       3   See 6 U.S.C. § 203; Transfer of INS functions at 6 U.S.C. §§ 202, 251 et al.
       4  IRTPA of 2004, § 1021 (Pub. L. No. 108-458, 118 Stat. 3672 (Dec. 17, 2004)),
codified at 50 U.S.C. § 3056(a). President Bush initially established NCTC by E.O. 13354,
on August 27, 2004. E.O. 13354 was rescinded by E.O. 13470 in July 2008 because IRTPA
codified the establishment of NCTC.


                                               6
               their goals, strategies, capabilities, and networks of contacts
               and support.” 5

      F.       Memoranda of Understanding

       The federal agencies that handled information concerning relevant
individuals and events prior to the bombings frequently have intersecting
and sometimes overlapping responsibilities in conducting counterterrorism
activities. The relationships between and among these agencies are
governed by memoranda of understanding (MOU). Of particular relevance
to this review are the relationships between the FBI, CIA, and DHS, as well
as the relationship between the FBI and the NSA, and the NCTC’s
relationships throughout the Intelligence Community.


IV.   CHRONOLOGY OF EVENTS

      In this section, we summarize the chronology of events relating to the
U.S. government’s knowledge of and interactions with Tamerlan Tsarnaev,
members of his family, and other associates before the bombings. Many of
the activities and events that occurred during the period discussed below
cannot be included in this unclassified summary.

      Tsarnaev Family Background

      Tamerlan Tsarnaev and Dzhokhar Tsarnaev immigrated to the United
States from Kyrgyzstan with their parents Anzor Tsarnaev and Zubeidat
Tsarnaeva. Anzor Tsarnaev, an ethnic Chechen, his wife Zubeidat
Tsarnaeva, and their son Dzhokhar Tsarnaev arrived in the United States
from Kyrgyzstan in 2002. They applied for and received an immigration
benefit. The elder son, Tamerlan Tsarnaev, and his sisters, Bella and Ailina
Tsarnaeva, arrived in the United States in 2003, and also received an
immigration benefit. In the years that followed, all six family members
became Lawful Permanent Residents (LPRs) of the United States.

      Receipt of Information from the Russian Government

      In 2011, two years before the Boston Marathon bombings, Tamerlan
Tsarnaev and Zubeidat Tsarnaeva came to the attention of the FBI based on
information received from the FSB. In March 2011, the FBI Legal Attaché
(LEGAT) in Moscow received a memorandum in Russian from the FSB
regarding Tamerlan Tsarnaev and Zubeidat Tsarnaeva. According to the
English translation used by the FBI, the memorandum alleged that both
were adherents of radical Islam, and that Tamerlan Tsarnaev was preparing

      5   Summarized from National Security Act of 1947 (P.L. 235), Section 119.


                                            7
to travel to Russia to join unspecified “bandit underground groups” in
Dagestan and Chechnya and had considered changing his last name to
“Tsarni.” The Russian authorities provided personal information about both
Tamerlan Tsarnaev and Zubeidat Tsarnaeva, including their telephone
numbers and e-mail addresses, and requested that the FBI provide the FSB
with specific information about them, including possible travel by Tsarnaev
to Russia. Importantly, the memorandum included two incorrect dates of
birth (October 21, 1987 or 1988) for Tamerlan Tsarnaev, and the English
translation used by the FBI transliterated their last names as Tsarnayev
and Tsarnayeva, respectively. 6

       On March 9, 2011, the LEGAT in Moscow sent a letter to the FSB
acknowledging receipt of the information and requesting that it keep the FBI
informed of any details it developed on Tamerlan Tsarnaev and Zubeidat
Tsarnaeva. The LEGAT also sent the translated memorandum to the FBI’s
Counterterrorism Division (CTD) and the FBI Boston Field Division with
leads to both components “to take any investigative steps deemed
appropriate and provide [LEGAT] Moscow with any information derived, for
dissemination to the [FSB].” According to available information, the LEGAT
did not coordinate with or notify the CIA in March 2011 after receiving the
lead information concerning Tsarnaev.

       Opening and Conduct of the FBI’s Assessment

      The Boston JTTF subsequently conducted an assessment of Tamerlan
Tsarnaev to determine whether he posed a threat to national security. The
FBI Special Agent (CT Agent) who handled the assessment memorialized the
steps he took in the assessment in an incident report maintained in the
FBI’s Guardian system, which is the FBI’s threat tracking and management
system for counterterrorism assessments.

       The CT Agent conducted database searches, reviewed references to
Tsarnaev and his family in closed FBI counterterrorism cases, performed
“drive-bys” of Tsarnaev’s residence, made an on-site visit to his former
college, and interviewed Tsarnaev and his parents. Based on information
from database searches, the CT Agent determined that Tamerlan Tsarnaev’s
last name was spelled “Tsarnaev,” and that his correct date of birth was
October 21, 1986, information that differed from the lead memorandum
from the FSB. During the assessment, the CT Agent asked a CBP officer on




        6 After reviewing a draft of the report, the FBI commented that there is no standard

transliteration of names from Cyrillic to Roman characters.


                                             8
the Boston JTIF to create a - i n TECS (the "JTIF TECS record"),
which included the correct name and date of birth. 7

       The DOJ OIG determined that the CT Agent did not take certain steps
during the assessment, including contacting local law enforcement, visiting
the mosque that Tsamaev attended, and conducting interviews of
Tsamaev's wife, a former girlfriend he had been arrested for assaulting in
2009, or friends and associates. The CT Agent told the DOJ OIG that he did
not find sufficient derogatory information to justify taking these additional
steps.

        The DOJ OIG also determined that the CT Agent did not attempt to
elicit certain information during interviews of Tsarnaev and his parents,
including information about Tsarnaev's plans to travel to Russia, changes in
lifestyle, or knowledge of and sympathy for militant separatists in Chechnya
and Dagestan. The CT Agent told the DOJ OIG that he did not know          he
did not ask about         to travel toRus




      Additionally, the DOJ OIG determined that the CT Agent did not use
every relevant search term known or available at the time to query the
databases that were searched, nor did he conduct searches of several major
FBI systems, including certain telephone databases and databases that
include information collected under authority of the Foreign Intelligence
Surveillance Act (FISA). However, searches of FBI databases conducted at
the direction of the DOJ OIG during this review produced little information
beyond that identified by the CT Agent during the assessment, with the
exception of additional travel-related data for Zubeidat Tsamaeva.

      The FBI, through its Office of General Counsel, stated that it was not
aware of any documents shared with state and local law enforcement prior
to the bombings but that representatives of these agencies would have had
access to the CT Agent's assessment in the Guardian system during this


        7 TECS is a system used to, among ot her things, provide advance notice of
int ernational travel and vet intemat ional t ravelers a t ·  and ot her port s of ent ry.

       8 Redactions in t his document are the result of classification and sensitivity
designations we received from agencies and departments t hat provided information t o t he
OIGs for this review. As to several of these classification and sensitivity designations, the
OIGs disagreed with the bases asserted. We are requesting that the relevant entities
reconsider t hose designat ions so that we can unredact those port ions and make t his
information available to the public.



                                               9
period. 9 Since the bombings, the FBI has taken steps to encourage greater
access to FBI systems by state and local detailees to JTTFs, as well as to
facilitate the sharing of JTTF information with detailees’ home agencies.

       Closing of the Assessment and Letters to the Russian Government

       The FBI closed the assessment on June 24, 2011, having found no
link or nexus between Tamerlan Tsarnaev and terrorism. The CT Agent’s
supervisor (CT Supervisor) told the DOJ OIG that by indicating in the
Guardian system that the assessment found no nexus to terrorism he
meant that the assessment found no nexus to terrorism from the time the
assessment was opened to the time it was closed. He said that if after he
closed the assessment the FBI received information from a foreign
government suggesting a positive nexus, he would have reopened the
assessment.

       The CT Supervisor told the DOJ OIG that he discussed the
assessment with the CT Agent before the CT Supervisor decided to close it
in order to determine whether any additional steps should be taken. He
stated that he decided to send a letter to the FSB in an effort to obtain
further information about Tsarnaev. In the disposition note in Guardian,
the CT Supervisor stated that the FBI would prepare a letter for the LEGAT
office in Moscow to disseminate to the FSB. The CT Supervisor told the
DOJ OIG that he probably instructed the CT Agent to draft the letter to the
FSB to request additional derogatory information about Tsarnaev because
the information in the original lead information “wasn’t enough.”

       Accordingly, after the closing of the assessment, the LEGAT sent two
letters to the FSB: one dated August 8, 2011, which stated that a review of
FBI databases revealed no derogatory information about Tamerlan Tsarnaev
and erroneously characterized him as a former prosecutor in Kyrgyzstan;
and one dated October 7, 2011, which corrected the earlier error and
provided information about Tamerlan Tsarnaev and Zubeidat Tsarnaeva
developed during the assessment. Both letters requested that the FSB
provide additional information in its possession regarding Tsarnaev. The
DOJ and CIA OIGs determined that the Assistant Legal Attaché coordinated
the August 8, 2011, letter with the CIA and documented this coordination,

       9   During the time period relevant to this review, DHS had detailed intelligence
officers to each of the Massachusetts fusion centers in compliance with the Homeland
Security Act, 6 U.S.C. § 124h(b)(5). The DHS OIG determined that the DHS intelligence
officers at the fusion centers did not receive any documents or other information
concerning Tamerlan Tsarnaev prior to the bombings, either from the FBI or from DHS
personnel on the Boston JTTF. Other than access to the FBI’s e-Guardian database, the
FBI and DHS do not have an MOU or other agreement to provide fusion centers with access
to JTTF information.


                                          10
pursuant to an MOU between the two agencies. The DOJ and CIA OIGs did
not find similar documentation that the LEGAT coordinated the October 7,
2011, letter with the CIA.

     The DOJ OIG found no documentation or other information that the
FSB responded to either letter prior to the bombings.

       Inclusion of Tsamaev on the Terrorist Watchlist

     The Terrorist Screening Database (TSDB), known as the terrorist
watchlist, is the U.S. govemment's central repository of records on known or
suspected terrorists. The TSDB receives records from a classified database
maintained by NCTC known as the Terrorist Identities Datamart
Environment (TIDE), and exports information to various unclassified
downstream databases, including TECS.

      In September 20 11, the FSB provided the CIA information on
Tamerlan Tsamaev that the OIGs determined was substantively identical to
the information the FSB had provided the FBI in March 2011. On October
19,2011, the CIA provided information obtained from the FSB to the NCTC
for watchlisting purposes, and to the FBI, DHS, and the Department of
State for their information. Upon receipt of the information, NCTC
established a record for Tamerlan Tsarnaev in TIDE. Although there was
insufficient derogatory information to establish reasonable suspicion that
Tsamaev was a known or         ected           he was watchlisted


                        ..... ..,..,~,....~~ govemment, the ''Tsarnayev" spelling of his
last name, and a possible name variant. Tsarnaev's watchlist records were
included in CBP's TECS database as four separate records. 1o Significant
differences existed between the four watchlist-derived TECS records and the
JTTF TECS record, which had been created during the FBI's assessment of
Tsamaev. Most notable were discrepancies in the spelling of his last name
and his date of birth.

      At the same time, the NCTC referred Tsarnaev's record to the Foreign
Terrorist Tracking Task Force (FTTTF), an FBI-led task force that works to

       10     The four entries were based on combinations of each last name variant and dat es
of birth ( 1987 and 1988). Tsarnaev's watchlist record also was entered into t he Department
of S t a t e Consular Lookout and Support System (CLASS) , used to perform name checks on
passport and visa applicants, and, from December 2011 until March 2013, t he
Transportation Security Administration (TSA) E-Select ee list, used for pre-flight t ravel
screening. Under the practices in place during t hat time, theE-Selectee list included t hose
admitted under the except ion used for Tsarnaev. Records watchlisted under t he exception
used for Tsarnaev subsequently were deemed ineligible for export to TSA and were removed.


                                             11
identify known or suspected intemational terrorists operating in the United
States. In December 2011, an FTTTF analyst reviewed Tsamaev's
information, conducted database searches, and determined that the Boston
JTTF previously had conducted an assessment of Tsamaev based on the
same information from the Russian govemment. The FTTTF analyst also
noted that the FBI LEGAT office in Moscow maintained an open case file on
Tsamaev.

       Tsamaev's Travel to Russia
      On January 21, 2012, Tamerlan Tsarnaev traveled to Russia on an
international flight from New York to Moscow. CBP received passenger data
for Tsarnaev from the airline before his travel and vetted it
                U.U.JL~~~ TECS. 1 1




      The information available to the DHS and DOJ OIGs does not
conclusively establish whether the CBP Officer notified the FBI CT Agent
about Tsarnaev's impending travel after being alerted to his travel.
Searches of the CBP Officer's and CT Agent's e-mail records provided to the
DHS and DOJ OIGs did not produce any evidence that such notification
occurred by e-mail communication. Further, during separate interviews,
the CBP Officer and the CT Agent each said that he had no specific
recollection of whether the CBP Officer passed the travel information to the
CT Agent.

       However, available information indicates that the CBP Officer most
likely notified the CT Agent of Tsarnaev's impending travel. The CBP Officer
told the DHS OIG that his usual process when he received a travel
notification was to retrieve the TECS record and then inform the agent who
requested the              e-mail, orally, or by passing a "sticky note." 13 The

       11 CBP receives advance airline passenger data prior t o a flight's departure from or
to the United States and checks that data repeatedly.




         1 3 At the time of Tsarnaev's travel to Russia, CBP and FBI policies did not specify

the means by which such notifications should occur. CBP has since changed its t ravel
not ificat ion policy to require not ification to the FBI case agent by e-mail.


                                              12
CBP Officer said that he believes he followed his usual process in this
instance and that the CT Agent would have told him that the lead was
closed and that there was no interest in Tsarnaev's travel. The DHS OIG
reviewed this CBP Officer's TECS usage on the days preceding Tsamaev's
outbound travel and confirmed that the CBP Officer accessed Tsarnaev's
JTTF TECS record on the same day he was alerted of Tsarnaev's travel.
Although this does not conclusively establish that the CBP Officer also
notified the CT Agent ofTsamaev's outbound travel, the DHS OIG
concluded that this confirmation demonstrates the CBP Officer took action
consistent with his usual process in response to the system alert. Further,
the CT Agent stated that the CBP Officer reliably passed along travel
information conceming other subjects in the past, and he had no reason to
doubt the CBP Officer's statements that he believes he passed the
notification ofTsamaev's travel to the CT Agent in January 20 12.




      Tsamaev was identified as a potential subject of interest for CBP at
JFK Intemational Airport. On the evening of January 21, 2012, when
Tsamaev's flight was departing, he was a low priority relative to the other
passengers of potential concern. As a result, CBP did not review his record
or conduct an outbound inspection of him before he departed.

      March 2012 JTTF TECS Record

      The CBP Officer who created the original JTTF TECS record
configured the record to be visible to CBP officers when they conduct initial
inspection of intemational travelers arriving in the United States, known as
primary inspection. The CBP Officer included instructions in the JTTF
TECS record that CBP conduct a more intensive inspection of Tsamaev,
known as secondary inspection.

      TECS records are set to display during primary inspections for a
certain period of time. At the end of this period, the CBP officer may change
the display status of the JTTF TECS record to be visible during primary
inspection for as long as the individual continues to be of interest and
merits additional scrutiny.




                                      13
       In March 2012, the record's display status changed so that it would
not display to CBP personnel during primary inspection. Neither the CBP
Officer nor the CT Agent recalled discussions about retaining the record to
be visible during primary inspection. However, the CBP Officer told DHS
OIG that his standard practice is to review the relevant record in TECS and
to speak with the relevant case agent to determine whether the record's
subject still is of interest. Additionally, DHS OIG reviewed the CBP Officer's
TECS usage and confirmed that he accessed the JTTF TECS record three
days after the display status changed. DHS OIG determined that although
this does not conclusively establish that the CBP Officer notified the CT
Agent of the record's change in status, it suggests that the CBP Officer took
action consistent with his usual process to determine whether to change the
record's display status.

      Tsamaev's Return to the United States
      On July 17, 2012, Tsarnaev retumed to the United States on an
international flight from Moscow to New York. CBP received tJa.~~·:oJ.J.J>;vJ.
for Tsarnaev from the airline




       The DHS and DOJ OIGs were unable to determine whether the CBP
Officer alerted the CT Agent about Tsarnaev's inbound travel. The CBP
Officer told the DHS OIG that he did not remember receiving the alert or his
actions in response to it, and the CT Agent told the DOJ OIG that he had no
recollection of any discussions with the CBP Officer about the return
notification. Moreover, the DHS and DOJ OIGs did not locate an e-mail
communication from the CBP Officer to the CT Agent. DHS OIG reviewed
the CBP Officer's TECS usage, and confirmed that the CBP Officer accessed
Tsamaev's JTTF TECS record a few hours after Tsarnaev's flight landed at
JFK Intemational Airport.

      Due to differences in CBP procedures and the display status of the
record, Tsarnaev was not identified as a potential subject of interest for CBP
at JFK International Airport. As a result, Tsarnaev was not directed to
secondary inspection. The CBP officer who conducted the primary
inspection of Tsarnaev said he could not recall his encounter with Tsarnaev.




                                         14
A CBP review of the officer’s activity indicates that the officer scanned
Tsarnaev’s Alien Registration Card into the computer system used during
primary inspection. The card was valid, and as a result, CBP took
Tsarnaev’s picture, collected his fingerprints, confirmed his identity, and
admitted him into the United States based on his LPR status.

       Significance of Tsarnaev’s Travel

       FBI officials disagreed about the significance of Tsarnaev’s travel to
Russia and whether it should have resulted in further investigative action.
The CT Agent said that the travel would not have been significant because
the assessment was closed and the FBI already had asked the Russians for
additional derogatory information. When asked whether he would have
considered taking further investigative steps had he learned of the travel at
the time, the CT Agent said that he would not have done anything
differently.

      However, other FBI officials stated that the information would have
been important to the FBI. The CT Supervisor told the DOJ OIG that he
was unaware of Tsarnaev’s travel to Russia until after the bombings, and
that he would have expected the CT Agent to tell him in January 2012
about the TECS hit indicating that Tsarnaev was about to travel to Russia. 15
He said that had he known about the travel, he probably would have
reopened the assessment, interviewed Tsarnaev upon his departure from
the United States, informed the LEGAT of the travel so that a determination
could have been made about notifying the Russian government, and worked
with the LEGAT to request information from the Russian government about
Tsarnaev’s activities in Russia. The CT Supervisor also stated that “there is
a very good chance” that the FBI would have interviewed Tsarnaev again
upon his return from Russia had it known about the travel, but that this
would have depended on what was learned from the Russians and from any
secondary inspection during Tsarnaev’s travel.

       Similarly, the Assistant Special Agent in Charge (ASAC) in charge of
the Boston JTTF during the period of the assessment expressed the belief to
the DOJ OIG that if someone had “pinged” the CT Agent about Tsarnaev’s
travel, it would have “changed everything.” 16 She also expressed the belief

        15 The CT Agent said he did not recall having a practice of notifying his supervisor

of travel notifications in closed assessments.
       16  We note, however, that the ASAC told the DOJ OIG that she was not made aware
until after the Boston Marathon bombings of the Tsarnaev lead information or the FBI’s
assessment of Tamerlan Tsarnaev. The ASAC said that an assessment generally did not
reach her attention unless it qualified as a sensitive investigative matter under the AG
Guidelines. The FBI did not designate the Tsarnaev assessment as a sensitive investigative
matter.


                                             15
that had the Boston JTI'F known that Tsarnaev traveled to Russia, and that
he went to an area known to be a training ground for extremists, it would
have worked with the Moscow LEGAT to obtain additional information.
Additionally, she said that she believes the FBI would have opened a second
assessment and interviewed Tsarnaev about why he went to Russia.

      The FBI LEGAT in Moscow between May 2011 and October 2012 told
the DOJ OIG that he was not aware of Tsarnaev's travel to Russia at the
time and did not believe that any U.S. agency at the Moscow Embassy was
aware of the travel. The LEGAT characterized the travel as "huge" and said
that had this information been brought to his attention, he would have
reported the information to CTD and the Boston Field Division for them to
take any actions they deemed appropriate. He said that the "normal course
of events" based on past cases would have been for the FBI to reopen the
Guardian assessment and seek additional information from the FSB
regarding Tsarnaev's activities while in Russia.

       Tsamaev's Naturalization Application

      Tamerlan Tsarnaev signed an application for naturalization on August
28, 2012. The USCIS National Benefits Center (NBC), which conducts
background checks to determine whether an applicant meets the
requirements for naturalization, received the application on September 24,
2012. As part of its background checks, NBC searched TECS and identified
the JTTF TECS record entered during the assessment, and also requested
fmgerprint and additional information from the FBI. Based on the
information               , the NBC transferred Tsarnaev's application for
additional reVIew.

      On October 22, 2012, an Immigration Services Officer (ISO) sent an e-
mail to the CT Agent listed in the JTTF TECS record explaining that
Tsarnaev had filed an application for naturalization and asking whether
Tsarnaev represented a national security concern. The CT Agent
subsequently searched the FBI's case management database and replied on
October 23, 2012, to the ISO, "There is no national security concern related
to [Tamerlan Tsarnaev] and nothing that I know of that should preclude
issuance of whatever is being applied for." The CT Agent told the DOJ OIG




       17 The DHS OIG also reviewed the USCIS adjudications of the nationalization
applications of the three other family members who applied, Anzor Tsarnaev, Dzhokhar
Tsamaev, and Zubeidat Tsarnaeva. Their files did not contain significant derogatory
information. USCIS naturalized the three family members.


                                          16
that he did not recall whether he searched public sources before replying to
this e-mail. 18

       The ISO also contacted the USCIS liaison on the Boston JTTF. The
liaison told the DHS OIG that when he received the ISO’s e-mail, he
conducted database searches and met with the CT Agent. He said that he
and the CT Agent discussed the records from the assessment of Tsarnaev,
including the original information provided by the FSB. The liaison said
that he told the CT Agent that barring any derogatory information from this
case or another source, Tsarnaev likely was eligible for citizenship, and that
he recalled that the CT Agent had no opposition to Tsarnaev’s
naturalization. The CT Agent told the DOJ OIG that it was a “good bet” he
discussed Tsarnaev’s naturalization application with the liaison but did not
have a specific recollection of what they discussed.

       On October 26, 2012, the liaison sent an e-mail to the ISO stating
that there was no current or prior investigation for Tsarnaev, and “there is
no derogatory information related to national security that would adversely
affect the subject’s eligibility for the immigration benefit being sought at this
time.” Tsarnaev’s application then was returned to the queue for normal
processing. USCIS personnel subsequently conducted database searches
for Tamerlan Tsarnaev on multiple separate dates and found no derogatory
records. DHS OIG determined that USCIS personnel did not use all
available aliases when conducting these searches, failing to query for the
term “Tamer Tsarnayev.” However, the DHS OIG concluded that had USCIS
checked this alias, it would not have produced additional information.

      In late November 2012, in response to a USCIS information request,
the FBI conducted a database search and drafted a memorandum stating
that there was no derogatory information about Tsarnaev. On December 3,
2012, the FBI returned additional information results showing Tsarnaev’s
arrest for assault and battery of his former girlfriend in July 2009. USCIS
then requested court records to confirm that the arrest did not result in a
conviction, which it did not receive before the April 15, 2013, bombings.

      A USCIS officer interviewed Tsarnaev on January 23, 2013, but did
not adjudicate his naturalization after the interview because USCIS had not
received the court records relating to his 2009 arrest. As a result,
Tsarnaev’s naturalization application remained pending on April 15, 2013.
The USCIS officer told the DHS OIG that had the court records been



       18 The FBI has no procedures for processing such requests for information about
the subjects of closed investigations or assessments that are submitted to the FBI in
connection with naturalization applications.


                                           17
processed before this date, he would have had no grounds to deny the
application, and Tsamaev would have become a naturalized citizen.


V.    INFORMATION OBTAINED OR FIRST ACCESSED AND
      REVIEWED AFTER THE BOMBINGS

     The OIG teams examined information that existed prior to the
bombings but was not obtained or first accessed and reviewed until after the
        . This information included certain

                                                          arnaev
                                                              U.U, vU.U.vU.


pursue J                       amaev former girlfriend describing
Tsamaev's shift toward radical Islam between 2006 and 2009, descriptions
from multiple sources ofTsarnaev's activities while in Russia in 2012, and
Tsamaev's collection and sharing of jihadi-themed videos and other
extremist materials beginning at least a year prior to the bombings.

      January 2011 Communications




                                    18
      Interview of Tsamaev's Wife and Former Girlfriend
      After the bombings the FBI interviewed Tsarnaev's former girlfriend
and his wife, Katherine Tsarnaeva. The former girlfriend provided
information about changes in Tsarnaev's behavior and appearance between
2006 and 2009             his         interest in videos about Islam.



              wife were available to be interviewed during the 201 1
assessment, but that it can never be known whether they would have
provided the same information to the FBI about Tsarnaev at any time before
Tsamaev had been identified as a perpetrator of the Boston Marathon
bombings while he was still alive and, in the case of Tsarnaev's wife, while
he was married to her.

      Tsamaev's Travel to Russia
      Tsamaev traveled to Russia on January 21, 2012, and retumed to the
United States on July 17, 2012. The DOJ OIG found that no information
was available in the FBI's primary data systems prior to the bombings about
Tsamaev's activities in Russia, and sought to determine what additional
information existed about Tsarnaev's activities during this period and
whether this information was available to the FBI before the bombings.

       The DOJ OIG's review of materials provided by the FBI showed that
after the bombings the FBI obtained information about Tsamaev's activities
during this period primarily from three sources: the FSB, witness
interviews, and analyses of computer media from Tsarnaev's home obtained
through a method only available in a full investigation. These materials
showed that Tsarnaev spoke of jihad prior to traveling to Russia, and that
he shared extremist articles and videos while he was in Russia.

      Computer Media and Electronic Communications
      The OIGs reviewed analyses of relevant information learned from
exploiting the electronic media and communications of Tsamaev and his
associates after the bombings. The FBI's analysis was based in part on
other government agency information showing that Tsarnaev created a
YouTube account on August 17, 20 12, and began posting the first of several
jihadi-themed videos in approximately October 2012. The FBI's analysis
was based in part on open source research and analysis conducted by other
U.S. govemment agencies shortly after the bombings showing that
Tsamaev's YouTube account was created with the profile name "Tamerlan
Tsamaev." After reviewing a draft of this report, the FBI commented that
Tsamaev's YouTube display name changed from "muazseyfullah" to

                                     19
"Tamerlan Tsarnaev" on or about February 12, 2013, and suggested that
therefore Tsarnaev's YouTube account could not be located using the search
term "Tamerlan Tsarnaev" before that date.2o The DOJ OIG concluded that
because another govemment agency was able to locate Tsamaev's YouTube
account through open source research shortly after the bombings, the FBI
likely would have been able to locate this information through open source
research between February 12 and April15, 2013. The DOJ OIG could not
determine whether open source queries prior to that date would have
revealed Tsamaev to be the individual who posted this material.

       An FBI analysis of electronic media showed that the computers used
by Tsamaev contained a substantial amount of jihadist articles and videos,
including material written by or associated with U.S.-born radical Islamic
cleric Anwar al-Aulaqi. On one such computer, the FBI found at least seven
issues of Inspire, an on-line English language magazine created by al-
Aulaqi. One issue of this magazine contained an article entitled, "Make a
Bomb in the Kitchen of your Mom," which included instructions for building
the explosive devices used in the Boston Marathon bombings.

      Information learned through the exploitation of the Tsarnaev's
computers was obtained through a method that may only be used in the
course of a full investigation, which the FBI did not open until after the
bombings.

       NSA Information

      The DOJ OIG, in coordination with the IC IG, reviewed information
that the NSA produced in response to a request from the IC IG. Included in
this    duction was information from 2012




       2o In response to a DOJ OIG request for information support ing this statement, the
FBI produced a heavily redacted 3-page excerpt from an unclassified March 19, 2014, EC
analyzing information t hat included information about Tsarnaev's YouTube account. The
unredact ed portion of the EC s t ated that YouTube e-mail messages sent to Tsarnaev's
Google e-mail account were addressed to "muazseyfullah" prior to February 12, 2013, and
to "Tamerlan Tsarnaev" beginning on February 14, 2013. The FBI redacted ot her
information in the EC about Tsarnaev's YouTube and Google e-mail accounts.


                                            20
VI.   SUMMARY OF ANALYSIS AND CONCLUSIONS

       Based on all the information gathered during our coordinated review,
we believe that the FBI, CIA, DHS, and NCTC generally shared information
and followed procedures appropriately. We identified a few areas where
broader information sharing between agencies may have been required,
such as FBI coordination with the CIA after receiving the lead information in
March 2011, or where broader information sharing in the future should be
considered, such as greater sharing of threat information with state and
local partners. We also identified a factual question that could not be
conclusively resolved concerning whether the notification of Tsarnaev's
travel to Russia was shared with the FBI CT Agent who conducted the
assessment.

      With respect to the FBI's pre-bombing investigation, we concluded
that the FBI made investigative judgments based on information known at
the time and that were within the legal framework goveming its ability to
gather intelligence and conduct investigations, in this case of U.S. persons.
We believe it is impossible to know what would have happened had different
judgments been made. With respect to post-assessment activities, we
believe that Tsarnaev's travel to Russia in 2012 was significant in view of
the FSB lead information and warranted further investigative action.

      Each participating OIG reached specific conclusions regarding actions
taken or not taken by its component agencies. We briefly summarize our
most significant conclusions below.

      The FBI's Assessment of Tamerlan Tsamaev

         •   The AG Guidelines and the DIOG give flexibility to FBI
             personnel to choose a lower level of investigation, even when the
             factual predication for a higher level of investigation is met, if
             FBI personnel determine the matter can be resolved through
             less intrusive methods. Given the limited information available
             to the Boston JTTF in March 20 11 conceming Tamerlan
             Tsamaev, the DOJ OIG concluded that the FBI CT Supervisor
             and CT Agent's decision to open the investigation at the
             assessment level was an application of the least intrusive
             method principle within their investigative discretion.
         •   Because the lead from the FSB included information about
             Zubeidat Tsamaeva, the DOJ OIG believes that the CT

                                      21
      Supervisor and CT Agent should have given greater
      consideration to opening an assessment on her. However, given
      that the bulk of the derogatory information in the lead arguably
      focused on Tamerlan Tsarnaev, the DOJ OIG concluded that it
      was within their discretion not to open an assessment on
      Zubeidat Tsarnaeva and instead to conduct limited database
      queries using her name and other relevant identifiers.
  •   The DOJ OIG concluded that additional investigative steps
      would have resulted in a more thorough assessment, including
      conducting additional database searches, asking questions of
      Tamerlan Tsarnaev and his parents to elicit information about
      any plans Tsarnaev may have had to travel to Russia, and
      interviewing Tsarnaev’s former girlfriend and wife. However, the
      DOJ OIG determined that the additional database searches
      would not have revealed any information that was not already
      known to the CT Agent conducting the assessment. In addition,
      the DOJ OIG found that it is impossible to know what the
      former girlfriend and wife would have told the FBI in 2011
      before the Boston Marathon bombings and while Tamerlan
      Tsarnaev was still alive. Therefore, it cannot be known whether
      these additional interviews would have yielded additional
      information relevant to the FSB lead information.
  •   The DOJ OIG found that since the Boston Marathon bombings
      the FBI has taken steps to encourage state and local partners
      on JTTFs to review the Guardian system and share relevant
      threat information with their home agencies. The DOJ OIG
      agrees with the steps the FBI has taken and recommends that
      the FBI take additional steps to share threat information with
      state and local partners more proactively.

Tamerlan Tsarnaev’s Travel to Russia

  •   The DOJ and DHS OIGs found that there is a factual question
      regarding whether the DHS CBP Officer on the Boston JTTF,
      after receiving advance notification of the travel, informed the
      FBI CT Agent who conducted the assessment about Tsarnaev’s
      flight to Russia. The OIGs believe that the CT Agent most likely
      did receive notice of Tsarnaev’s outbound flight but we were
      unable to determine this fact conclusively because there was no
      written confirmation that the CBP Officer had conveyed this
      information to the CT Agent. For the same reason, the DOJ and
      DHS OIGs could not determine conclusively whether the CBP
      Officer informed the CT Agent of Tsarnaev’s return flight from
      Russia.


                              22
Information Sharing and Coordination Between the FBI and CIA

   •   The DOJ and CIA OIGs found that the FBI LEGAT in Moscow
       did not coordinate with the CIA in March 2011, pursuant to the
       Memorandum of Understanding between the FBI and the CIA,
       after receiving the lead information from the FSB concerning
       Tamerlan Tsarnaev. However, we also concluded that the CIA’s
       involvement in March 2011 likely would not have provided the
       FBI with information that could have been helpful to the Boston
       JTTF’s assessment of Tamerlan Tsarnaev.

FTTTF and NCTC’s handling of information about Tsarnaev

   •   The DOJ OIG examined the FTTTF’s handling of the referral of
       Tsarnaev’s record from NCTC, including the FTTTF’s decision
       not to provide information about the fact of the closed FBI
       assessment of Tsarnaev to NCTC. The DOJ OIG determined
       that FTTTF practice at that time did not require the provision of
       information directly to NCTC. Additionally, the DOJ OIG
       concluded that had the fact of the closed assessment been
       shared with NCTC, this information may have led to Tsarnaev’s
       removal from the watchlist.
   •   NCTC had in its possession the CIA’s nomination of Tsarnaev to
       TIDE, the TIDE record derived from that nomination, and travel
       data from DHS regarding Tamerlan “Taarnaev’s” outbound flight
       to Russia in January 2012.
   •   The IC IG determined that Tsarnaev’s nomination to TIDE was
       at a lower priority than those that are ordinarily enhanced. The
       IC IG expects NCTC’s new practice of seeking to enhance all
       U.S. person watchlisted information in TIDE will reduce the
       level of unmatched records for those persons in the future.
   •   On April 3, 2012, NCTC received information from DHS about
       Tsarnaev’s January 21, 2012, outbound travel. The data did
       not correctly identify Tsarnaev as a U.S. person. Based on the
       information received from DHS, NCTC retained the document in
       accordance with procedures. Had the data accurately identified
       Tsarnaev as a lawful permanent resident (a U.S. person), NCTC
       would have been required to delete his travel information within
       180 days unless it was determined to constitute terrorism
       information.

Adjudication of Immigration Benefits for Tamerlan Tsarnaev

   •   DHS OIG examined the INS’s adjudication of immigration
       benefits for the Tsarnaev family members in 2002 and 2003, as

                                24
                well as the USCIS’s adjustment of their status to lawful
                permanent resident (LPR) in 2006 and 2007. The DHS OIG
                concluded that the USCIS granted these benefits in accordance
                with the Immigration and Nationality Act (INA) and agency
                policy and procedures.
            •   DHS OIG examined the USCIS’s adjudication of Tamerlan
                Tsarnaev’s 2012 application for naturalization and concluded
                that, with one exception, the USCIS conducted the
                naturalization processes in accordance with the requirements of
                the INA and the USCIS policies and procedures. 21 The one
                exception was that the USCIS did not check one alias, “Tamer
                Tsarnayev.” However, the DHS OIG determined that had the
                USCIS checked this alias, it would not have found the TECS
                entries derived from Tsarnaev’s watchlist record.
            •   DHS OIG found that the USCIS acted appropriately by
                contacting Boston JTTF members and receiving information
                that Tsarnaev did not pose a national security concern.
                Additionally, the ISO who interviewed Tsarnaev followed USCIS
                processes and policies by delaying adjudication of his
                naturalization application until the court records dismissing
                criminal allegations were obtained.


VII.   RECOMMENDATIONS

       In light of our findings and conclusions summarized above, the
participating OIGs found no basis to make broad recommendations for
changes in information handling or sharing. We nonetheless identified
some areas in which existing policies or practices could be clarified or
improved. Accordingly, we make the following recommendations:

        1.      The DOJ and DHS OIGs recommend that the FBI and DHS
                clarify the circumstances under which JTTF personnel may
                change the display status of a TECS record, particularly in
                closed cases.

        2.      The DOJ OIG recommends that the FBI consider sharing threat
                information with state and local partners more proactively and
                uniformly by establishing a procedure for notifying state and
                local representatives on JTTFs when it conducts a


       21 The DHS OIG also found that the USCIS adhered to statutes, policies, and
procedures when it granted naturalization to Dzhokhar Tsarnaev, Anzor Tsarnaev, and
Zubeidat Tsarnaeva.


                                          25
counterterrorism assessment of a subject residing in or having
a nexus to a representative’s area of responsibility. Such a
procedure would allow state and local representatives to JTTFs
the opportunity to share potentially relevant information with
the FBI.




                        26
           IC IG FORUM
      Unclassified Summary
Of Information Handling and Sharing
     Prior to the April 15, 2013
 BOSTON MARATHON BOMBINGS


MANAGEMENT COMMENTS
                                                                      U.S. Department of Homeland Security
                                                                      Washington, D.C. 20528


                                                                      Homeland
                                                                      Security
                                            April 9, 2014


MEMORANDUM FOR:                John Roth
                               Inspector General

FROM:                          Jim H. Crumpacker
                               Director           \
                                                     ~· l ~---t-
                               Departmental GAO-OI · Liaison Office

SUBJECT:                       OIG Draft Report: "A Review of the Handling and Sharing of
                               Information Prior to the April15, 2013 Boston Marathon
                               Bombings" (OIG Project No. 13-146)


Thank you for the opportunity to review and comment on this draft report. The U.S. Department of
Homeland Security (DHS) appreciates the Office oflnspector General's (OIG's) work, and that of its
national security community partners, in planning and conducting this review and issuing this report.

DHS has built close relationships with partners in communities across the Nation and improved
its support to them, actions that will continue to make America stronger and more resilient to
tetTorist attacks, and threats and hazards of all kinds. DHS works with first responders, law
enforcement, individuals, private sector partners, and communities across the country to reduce
vulnerabilities and enhance preparedness while strengthening emergency response capabilities at
the Federal, State, local, tribal and tenitoriallevels. While America is stronger and more
resilient as a result of effmts over the past decade to build robust national capabilities, the Boston
Marathon bombings serve as a reminder that threats fi:om tenorism persist and continue to
evolve.

Since the Boston attack, DHS, the Federal Bureau oflnvestigation (FBI), and National
Cmmtertenorism Center (NCTC) have expanded infmmation sharing with state and local
officials about potential threats. DHS also sent updated guidance to officers at the Joint
Tenorism Task Force (JTTF) to improve on our strong foundation of collaboration with the FBI.
Additionally, DHS also continues to work closely with federal prutners to screen and vet
domestic and intemational travelers, visa applicants and other persons of interest to identify
potential threats.

DHS 1s pleased to note OIG' s recognition that the Deprutment and its external prutners generally
shru·ed information and followed procedures appropriately. For example, as stated in the draft
report, U.S. Customs and Border Protection (CBP) followed the appropriate policy and procedures
during the outbound and inbound vetting ofTamerlan Tsarnaev's (Tsarnaev's) travel.
CBP continuously strives to improve its processes while ensuring that information provided is
accurate and verified. For example, CBP established a "formalized notification procedure" to
ensure documentable communication in the fast-paced environment of the JTTF.

The draft report contained one recommendation directed to DHS with which the Department
concurs. Specifically, OIG recommended that:

Recommendation: The Federal Bureau oflnvestigation and DHS clarify the circumstances
under which Joint Tenorism Task Force personnel may change the display status of a TECS
record, particularly in closed cases.                                 ·

Response: Concur. CBP will coordinate with FBI counterparts to determine what additional
TECS record guidance is needed for JTTF personnel and how best to disseminate that guidance,
as appropriate. Estimated Completion Date: September 30, 2014.

The events in Boston have highlighted how close coordination among Federal, State, and local
officials is critical in the immediate aftermath and response to tenorist attacks and reinforces the
principle and value of whole community contributions, including from the general public. Both
the work leading up to the Boston Marathon and the quick action following the event
demonstrate the significant progress that has been made over the past eleven years.

Again, thank you for the opportunity to review and comment on this draft report. Technical
comments were previously provided under separate cover. Please feel free to contact me if you
have any questions. We look forward to working with you in the future.




                                                                                                   2
                                                     U.S. Department of Justice

                                                     Federal Bureau of Investigation




Office of the Director                               Washington, D.C. 20535

                                                     April 7, 2014


The Honorable Michael E. Horowitz                 The Honorable I. Charles McCullough, III
Inspector General                                 Inspector General of the Intelligence Community
United States Department of Justice               Washington D.C. 20511
Washington, D.C. 20530-0001

The Honorable David B. Buckley                    The Honorable John Roth
Inspector General                                 Inspector General
Central Intelligence Agency                       United States Department of Homeland Security
Washington, D.C. 20505                            Washington, DC 20528-0305

Dear Inspectors General:

       The FBI appreciates your thorough review of the handling and sharing of information prior
to the Aprill5, 2013 Boston Marathon bombings. Of course, we continue to remember all who
were harmed in those terrible events. But whenever a tragedy occurs, we owe it to the victims
and the American people to look back and see what lessons we can learn. It's not just a useful
exercise; it's an essential one.

       Here, your review confirmed that when Russian authorities provided limited information
to the FBI about Tamerlan Tsamaev and his mother in 2011, the FBI acted appropriately. The
FBI's Boston field office took responsible investigative steps and, as you recognized, generally
shared information and followed procedures appropriately. We also concur with your
recommendations. In fact, we have already taken steps to ensure that all threat information is
proactively and uniformly shared with the state and local partners whose support is so critical to
the success of our Joint Terrorism Task Forces.

       FBI agents and analysts throughout the world, together with our law enforcement and
intelligence partners, work day in and day out to protect the homeland, using all available tools
consistent with our Constitution, laws and policies. They have to make critical judgments in real
time, almost always with imperfect information, and often in dangerous circumstances. I am
proud of the work that the Boston field office did in this case, before the bombings as well as
after them, and I am proud of all the people of the FBI who have made the safety of the
American people their life's mission.

                                                     Sincerely,



                                                     James B. Corney
                                                        Director


                                                                                                     FBI / DOJ
                                        DIRECTOR
                            NATIONAL COUNTERTERRORISM CENTER
                                        Washington DC 20505



                                                                    NCTC-2014-0383


MEMORANDUM FOR:               I. Charles McCullough III
                              Inspector General of the Intelligence Community

SUBJECT:                      A Review of the Handling and Sharing of Information Prior to the
                              April 15, 2013 Boston Marathon Bombings


        Thank you for the opportunity to review and comment on your report on the Boston
marathon bombings. As indicated in the report, NCTC has conducted its own center-wide
review of related activities and relevant issues pertaining to the bombings, as is our standard
practice following any significant terrorism event. Although our review did not reveal any
information that would have led to discovery of the marathon plotting or attacks prior to their
occurrence, we identified actions and enhancements that will refine our current and future
capabilities, processes, and procedures. We are also continuing to monitor our progress with
regular updates among our leadership team and will continue to work with your office going
forward.




Matthew G. Olsen
